LO14570.indd 1

Variable Rate Credit Card
Agreement and
Truth in Lending Disclosure
Visa Platinum
Visa Platinum Rewards
Visa Signature

Important Document
Please keep for your records

Hudson Valley Credit Union

2/25/2021 10:35:15 AM

LO14570.indd 2

2/25/2021 10:35:15 AM

LO14570.indd 3

Variable Rate Credit Card
Agreement and
Truth in Lending Disclosure
In this Variable Rate Credit Card Agreement and Truth in
Lending Disclosure (Agreement), the words you and your
mean each and all of those who applied for the Card. Card
means the Credit Card or Cards for which you applied
and any duplicates or renewals we issue. Account means
this open-end revolving line of credit account established
pursuant to this Agreement. Charges are posted to the
Account from the use of the Card, information from the Card
or any other device or procedure by which the Account can
be accessed. We, us and our mean Hudson Valley Credit
Union (HVCU).
RESPONSIBILITY
You agree to repay all charges, purchases, cash advances
and finance charges arising from the use of the Card and the
Account. For example, you are responsible for charges made
by yourself, your spouse, and minor children. You are also
responsible for charges made by anyone else to whom you
give the Card, and this responsibility continues until the Card
is recovered. You cannot disclaim responsibility by notifying
us, but we will close the Account for new transactions if
you so request and return all Cards. Your obligation to pay
the Account balance continues even though an agreement,
divorce decree, or other court judgment to which we are
not a party may direct you or one of the other persons
responsible to pay the Account.
If you have requested an authorized user on your Card, you
agree to be responsible for all charges made by yourself and
your authorized user. You understand the authorized user is
not the person liable for debts incurred with the use of the
Card, and that you are the person solely responsible for the
Account.
GOVERNING LAW
This agreement is made in New York and shall be governed
by the laws of the State of New York to the extent that New
York law is not inconsistent with controlling Federal law.
New York’s choice of law rules shall not be applied if that
would result in the application of non-New York Law.
ENFORCEMENT
You agree to be liable to HVCU for any liability, loss, or
expense as provided in this Agreement that the Credit Union
incurs as a result of any dispute involving your accounts

1

2/25/2021 10:35:15 AM

LO14570.indd 4

or the services. You authorize HVCU to deduct any such
liability, loss, or expense from your account without prior
notice to you. In the event either party brings a legal action
to enforce the Agreement, the prevailing party shall be
entitled, subject to applicable law, to payment by the other
party of its reasonable attorney’s fees and costs, including
fees on any appeal, bankruptcy proceedings, and any postjudgment collections actions, if applicable.
SEVERABILITY
If any term of this Agreement is to any extent invalid, illegal,
or incapable of being enforced, such term shall be excluded
to the extent of such invalidity, illegality, or unenforceability;
all other terms hereof shall remain in full force and effect.
CREDIT LINE
We have established a revolving line of credit for you and
will notify you of the credit limit when we issue the Card.
You agree not to let the Account balance exceed this
approved credit line. Each payment you make on your
Account will restore your credit line by the amount of the
payment, which is applied to principal. If you request an
increase to your credit limit and we approve the request,
your use of the Card constitutes acceptance of the increased
line. By giving you written notice we may reduce your credit
line, or with good cause, revoke your Card and terminate
this agreement. Good cause includes your failure to comply
with this agreement, or an adverse re-evaluation of your
creditworthiness. You may also terminate this agreement
at any time, but termination by either of us does not affect
your obligation to pay the Account balance. The Card
remains our property and you must recover and surrender
to us all Cards upon our request and upon termination of
this agreement.
USING THE CARD
You understand that the use of your Card will constitute
acknowledgment of receipt and agreement to the terms of
this Agreement.
To make a purchase, you and any authorized user may use
the Card by presenting it to a participating Visa merchant
or provide the Card information for purchases not made in
person. To make a cash advance, there are two alternative
procedures to be followed. One is for you and any
authorized user to present the Card to a participating Visa
merchant, to us or to another financial institution, and sign
the sales or cash advance draft which will be imprinted with
your Card. The other is to complete the transaction by using
your Personal Identification Number (PIN) in conjunction
with the Card in an Automated Teller Machine (ATM) or
other type of electronic terminal that provides access to

2

2/25/2021 10:35:15 AM

LO14570.indd 5

the Visa system. You may make cash withdrawals that total
$500.00 per day either individually or in aggregate. This
service may not be available at all machines. Dollar amounts
available may vary between machines.
INACTIVITY
At the time your Card is due to expire, if your Account has
been inactive for a period of 23 months, we will not reissue
another Card and your Account will be closed. You will then
be required to re-apply and be re-qualified to use a Card.
ISSUANCE OF PERSONAL IDENTIFICATION NUMBER
We will issue you a Personal Identification Number (PIN)
for use with your Card. This PIN is confidential and should
not be disclosed to anyone. In the event a use of your PIN
constitutes an electronic funds transfer, the terms and
conditions of your Electronic Funds Transfer Disclosure &
Agreement apply.
LIABILITY FOR UNAUTHORIZED USE
You may be liable for unauthorized use of your Card.
You will not be liable for unauthorized use that occurs
after you notify us of the loss, theft, or other unauthorized
use. In any case, your liability will not exceed $50.00 for
unauthorized cash advances at ATMs, and zero liability for
unauthorized purchases made with your Card. In order
to qualify for the zero liability, you must not have been
negligent or fraudulent in the handling of the Account.
In case of loss or theft, call the credit union immediately at
845.463.3011.
MONTHLY PAYMENT
We will mail you a statement every month showing your
previous balances of purchases and cash advances, the
current transactions on your Account, the remaining
credit available under your credit line, the new balances of
purchases and cash advances, the total new balance, the
finance charge due to date, and the minimum payment
required. Every month you must pay at least the minimum
payment within 25 days of your statement closing date.
You may pay more frequently, pay more than the minimum
payment, or pay the total new balance in full, and you
will reduce the finance charge by doing so. The minimum
payment will be either (a) 2% of your total new balance, or
$10.00, whichever is greater, or (b) your total new balance,
if it is less than $10.00, plus (c) any portion of the minimum
payment(s) shown on prior statement(s) which remains
unpaid. In addition, at any time your total new balance
exceeds your credit line, you must immediately pay the
excess upon our demand. Payments made to your Account

3

2/25/2021 10:35:15 AM

LO14570.indd 6

will be applied in the following order: fees, finance charges,
purchases, and cash advances. We may accept checks
marked “payment in full” or with words of similar effect
without losing any of our rights to collect the full balance of
your Account with us.
FINANCE CHARGE
HOW TO AVOID PAYING INTEREST ON PURCHASES:

Your due date is at least 21 days after the close of each
billing cycle. We will not charge you any interest on
purchases if you pay your entire new balance by the due
date each month.
HOW WE WILL CALCULATE YOUR BALANCE:
We use a method called “Average Daily Balance (including
new purchases)”.
HOW WE CALCULATE YOUR BALANCE AND INTEREST
CHARGE ON BALANCES:
We figure the interest charge on your Account by applying
the applicable Periodic Rate to the “Balance Subject to
Interest Rate” which is the “Average Daily Balance” of your
Account for each feature category, including certain current
transactions. Feature categories include purchases, balance
transfers, cash advances and promotional balances. These
calculations may combine different feature categories with
the same “Monthly Periodic Rates”. The “Average Daily
Balance” for each feature category is arrived at by taking
the beginning balance of such feature category each day
and adding any new transactions to the balance, except we
will not include new purchases if you have paid in full the
New Balance on your previous statement by the Payment
Due Date or if the New Balance on your previous statement
was zero. Cash advances incur an interest charge from the
date they are posted to your Account. We then subtract any
payments or credits and unpaid interest or other “Finance
Charges” allocated to the feature category balance for
the day. This gives us the daily balance for such feature
category. The daily balances for such feature category are
then added together and divided by the number of days in
the billing cycle. The result is the “Average Daily Balance”
for such feature category. The interest charge is determined
by multiplying the “Average Daily Balance” by the monthly
periodic rate. If your periodic rate is computed using an
index, your periodic rate(s) may vary. The Payment Due
Date will be no less than 21 days after we have sent you
your current monthly statement. For your Account to be
considered current and to avoid a late payment fee, you
must pay at least the Minimum Payment Due this period
and any Past Due Amount by the due date shown on your
statement.

4

2/25/2021 10:35:15 AM

LO14570.indd 7

For all Cards, the current Monthly Periodic Rate and the
corresponding interest rate will be disclosed to you in a
separate letter enclosed with this Agreement/Disclosure.
VARIABLE RATE
Your Account is subject to a Variable Rate. Your ANNUAL
PERCENTAGE RATE (APR) may increase (or decrease) if
our index, the Wall Street Journal Prime Rate in effect on
the fifth to last business day of the month increases (or
decreases). When a range of rates is published in the Wall
Street Journal on that day, the index will be the highest
rate. Each month, the new index rate is added to the margin
(disclosed separately in the letter enclosed) to calculate the
ANNUAL PERCENTAGE RATE. The ANNUAL PERCENTAGE
RATE, when changed, affects your entire balance and is
effective the first full statement cycle following the change
in the Prime Rate. The ANNUAL PERCENTAGE RATE will never
be more than the rate ceiling allowed by New York State
Law. We will not accumulate unused index rate increases
and decreases. Changes in the ANNUAL PERCENTAGE RATE
will result in more (or fewer) payments. We may change the
index with proper notice to you.
In accordance with federal regulation, for Card balance
transfers conducted in certain situations such as, changing
from one product to another within this credit union, the
amount of the transferred balance will remain at the variable
ANNUAL PERCENTAGE RATE in effect for the product from
which the balance was transferred. For example, if you
wish to change from a Visa Platinum Rewards card to a Visa
Platinum Card and this change results in transferring the
balance remaining on the Visa Platinum Rewards Card to the
Visa Platinum Card, the variable ANNUAL PERCENTAGE RATE
of the Visa Platinum Rewards Card must remain in effect
on the amount transferred until such time that portion of
the balance is paid in full and all future transactions will be
charged the variable ANNUAL PERCENTAGE RATE in effect
for the Visa Platinum Card. This does not apply in situations
when your Card requires replacement, for example if your
Card is compromised, lost, stolen, etc.
CHANGE IN TERMS
We have the right to change any of the terms of this
Agreement, including but not limited to rates and fees, at
any time. You will be given notice of a change as required by
applicable law. Any change in terms governs your Account
as of the effective date, and will, as permitted by law and
at our option, apply both to transactions made on or after
such date and to any outstanding Account balance. We may
amend the Annual Percentage Rate on your Account, based
on the results of our obtaining and evaluating your credit
information. Use of your Account may constitute agreement
to any change in terms.

5

2/25/2021 10:35:15 AM

LO14570.indd 8

RETURNS AND ADJUSTMENTS
Merchants and others who honor the Card may give credit
for returns or adjustments, and they will do so by sending us
a credit, which we will post to your Account. If your credits
and payments exceed what you owe us, we will hold and
apply this credit balance against future purchases and cash
advances, or if it is one dollar or more, refund it on your
written request or automatically after 6 months.
CASH ADVANCE FEE
For each cash advance conducted in person at a branch, we
will assess a cash advance transaction fee equal to 2% of the
amount of the cash advance. Cash advance transaction fees
will be added to the cash advance balance on your Account.
FOREIGN TRANSACTIONS
Purchases, cash withdrawals, cash advances, and credits
made or initiated in foreign countries or foreign currencies
will be billed to you in U.S. dollars regardless of your
physical location. A transaction’s location for purposes
of invoking the foreign transaction fee is determined
by internationally-based or overseas merchants, or the
physical location of the merchant who consummates the
transaction rather than where the consumer member is
physically located. The conversion into dollars will be made
in accordance with the operating rules for international
transactions established by Visa, USA, Inc. and may occur on
a date other than the date of the transaction; therefore, the
currency conversion rate may be different than the rate in
effect at the time of the transaction.
We do not determine the currency conversion rate that
is used nor do we receive any portion of the currency
conversion rate. You agree to pay the converted amount.
The exchange rate to dollars will be a rate that is in effect for
the applicable central processing date and is selected either
from the range of rates available in wholesale currency
markets; or the government mandated rate. A FOREIGN
TRANSACTION FEE of 1% of the transaction amount will be
assessed on Visa Platinum and Visa Platinum Rewards and
will be shown independently of the transaction on your
billing statement.

6

2/25/2021 10:35:15 AM

LO14570.indd 9

STATUTORY LIEN AND SECURITY INTEREST
If you are in default on any financial obligation, Federal
law permits us to enforce a statutory lien and security
interest on all accounts in which you have an ownership
interest by transferring funds from these accounts to
satisfy your obligtions. We may also restrict access to
these accounts. This security interest does not apply
to the extent it otherwise violates federal law, to
any Individual Retirement Account, or to any other
account that would lose special tax treatment under
state or federal law if given as security.

CROSS COLLATERAL
To secure your Account, you grant us a purchase money
security interest under the Uniform Commercial Code (UCC)
in any goods you purchase through the Account, except
property used for personal, family or household purposes.
Any collateral securing other loans with us (other than your
principal dwelling) will also secure advances made under
this Agreement. If you default, we will have the right to
recover any of these goods, which have not been paid for
through our application of your payments in the manner
described under the paragraph Monthly Payments, as
provided in this Agreement.
MERCHANT DISPUTES
We are not responsible for the refusal of any merchant,
financial institution, or automated equipment to honor or
accept your Card.
We are subject to claims and defenses (other than tort
claims) as described under YOUR BILLING RIGHTS.
DEFAULT
You will be in default if:
1. you fail to make any minimum payment within 25
days of your statement date;

2.

you fail to live up to the terms and conditions of this
Agreement and Truth in Lending Disclosure;

3.

your creditworthiness is impaired;

4.

you die, become insolvent, or are the subject of
bankruptcy or receivership proceedings;

5.

you have made a misrepresentation in connection
with the Card application and/ or this Agreement, or;

6.

you are in default on any other loan with us.

If you are in default, we have the right to terminate this
Agreement and demand immediate payment of your full

7

2/25/2021 10:35:15 AM

LO14570.indd 10

Account balance, subject to our giving you any notice
required by law. To the extent permitted by law, you will
also be required to pay our collection expenses, including
court costs and reasonable attorney fees.
CREDIT INFORMATION
You authorize us to disclose information regarding your
Account to credit bureaus and other creditors who inquire
of us about your credit standing. You also authorize us to
request and use a report(s) from outside credit reporting
agencies in considering your original request for credit or
in connection with renewal or continuation of the credit for
which you have applied. If you request it, we will tell you
whether or not we asked for such a report, and if we have,
give you the name and address of the agency or agencies.
EFFECT OF AGREEMENT
This agreement will be effective when you or an authorized
user uses the Card or the Account, or if you fail to cut your
Card in half and return it to us within 30 days after it is
issued to you. This agreement applies to all transactions on
your Account even though the sales, cash advance, credit, or
other slips you sign or receive may contain different terms.
FEES
If you fail to make any minimum payment within 35 days of
the statement date, a late fee will be imposed as set forth in
the Fee Schedule.
Your Card is also subject to other applicable fees as set
forth in the Fee Schedule.
The Fee Schedule accompanies this Agreement and
Disclosure and is incorporated by this reference. We will
charge such fees against your Account.
NO WAIVER
We can delay enforcing any of our rights any number of
times without losing them.
STATEMENTS
Statements and notices will be mailed to you at the most
recent address given to us. Notice sent to any one of you
will be considered notice to all. The monthly statement
will identify the merchant, electronic terminal or financial
institution at which transactions were made, but sales,
cash advance, credit, or other slips cannot be returned with
the statement. You should retain the copy of such slips
furnished at the time of the transaction in order to verify
the monthly statement.
ACCOUNT BALANCE RESTRICTIONS
In order to be approved for and maintain a Secured Visa

8

2/25/2021 10:35:15 AM

LO14570.indd 11

Account, you agree to give us a specific pledge of shares
which will equal your credit limit. You may cancel your
Secured Visa Account at any time without penalty and
redeem your pledged shares by paying any amounts
borrowed through the use of your Card. In order to be
certain that your entire balance and all advances on your
Account are paid, any shares pledged may not be available
for 30 days after you have cancelled your Account and any
outstanding balance is paid in full.
AUTOMATIC PAYMENT SERVICE
If you requested to have your Card payment made
automatically, your payment will be made on the due date
printed on your statement. If the payment date falls on a
weekend or holiday, the payment will be made the next
processing day. Payments will be based on the ending
balance from the previous month’s statement.
If you wish to cancel this service, you may notify us either
by calling or writing, at any time, up to 3 business days
before the scheduled date of the transfer. You must follow
up any oral notification, in writing, within 14 days of the oral
notification.
ILLEGAL USE OF FINANCIAL SERVICES
Any financial service provided by the credit union may be
used for any transaction permitted by law. You agree that
illegal use of any financial service will be deemed an action
of default and/or breach of contract and such service and/or
other related services may be terminated at our discretion.
Illegal use includes, but is not in any way limited to, unlawful
Internet gambling. You further agree, should illegal use occur,
to waive the right to sue us for such illegal activity directly
or indirectly related to it. You also agree to indemnify and
hold the credit union harmless from any suits or other legal
action or liability, directly or indirectly, including credit union
expenses associated with defense of such law suits or other
legal action, including attorney fees, resulting from such
illegal use.
BLOCKING CARDS AND/OR REFUSAL TO AUTHORIZE
TRANSACTIONS
We may block this Card due to the appearance of unusual
spending behaviors or block transactions originating in
certain domestic or international regions where there is a high
volume of fraud.
CONVENIENCE CHECKS
You can access your revolving line of credit to purchase
goods and services or to obtain cash up to the amount of
your credit limit through the use of convenience checks.
Use of your convenience checks is a cash advance on

9

2/25/2021 10:35:15 AM

your Account and is subject to a $10,000 daily limit. We
are not required to honor a convenience checks that will
cause you to exceed your credit limit. We will not pay a
convenience check if at the time the check is presented,
you are in default or we have suspended, terminated or
cancelled your Account. Each convenience check must be in
the form we have issued to you. Convenience checks may
be used only by the person whose name is printed on the
check. You are responsible for all authorized use of your
convenience check. You may not use a convenience check
to pay any amount which you owe us under your Account.
Your monthly statement will show you an itemization of
the convenience checks posted to your Account during
the billing cycle. Convenience checks paid by us will not
be returned to you with your monthly statement. You may
order a stop payment on a convenience check by notifying
us orally or in writing. Oral notices must be confirmed in
writing within fourteen (14) days. Written stop payment
orders will remain in effect for six (6) months, but may
be renewed for an additional six (6) month period by
written notice during the time the stop payment order
was effective. We will charge a fee when we place a stop
payment on your check(s). Convenience checks are the
property of the credit union. We reserve the right to revoke
them at any time. You agree to return them at our request.
INTEGRATED DOCUMENTS
Any separate sheet of paper, which is delivered to you with
this Agreement, is an integrated part of this Agreement and
Disclosure.
HOLDER IN DUE COURSE NOTICE (If applicable)

NOTICE: ANY HOLDER OF THIS
CONSUMER CREDIT CONTRACT IS
SUBJECT TO ALL CLAIMS AND DEFENSES
WHICH THE DEBTOR COULD ASSERT
AGAINST THE SELLER OF GOODS OR
SERVICES OBTAINED PURSUANT HERETO
OR WITH THE PROCEEDS HEREOF.
RECOVERY HEREUNDER BY THE DEBTOR
SHALL NOT EXCEED AMOUNTS PAID BY
THE DEBTOR HEREUNDER.
YOUR BILLING RIGHTS - KEEP THIS DOCUMENT FOR
FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT:
If you think there is an error on your statement, write to us at:

LO14570.indd 12

10

2/25/2021 10:35:16 AM

LO14570.indd 13

Hudson Valley Credit Union
P.O. Box 1071
Poughkeepsie, NY 12602-1071
You may also contact us on the web at hvcu.org and click
on “Contact Us.”
In your letter, give us the following information:

•

Account information: Your name and account
number.

•

Dollar amount: The dollar amount of the suspected
error.

•

Description of problem: If you think there is an
error on your bill, describe what you believe is
wrong and why you believe it is a mistake.

You must contact us:
Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated
payment is scheduled, if you want to stop
payment on the amount you think is wrong.

•

You must notify us of any potential errors in
writing or electronically. You may call us, but if
you do we are not required to investigate any
potential errors and you may have to pay the
amount in question.

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER:
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an
error:

•

We cannot try to collect the amount in question, or
report you as delinquent on that amount.

•

The charge in question may remain on your
statement, and we may continue to charge you
interest on that amount.

•

While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.

11

2/25/2021 10:35:16 AM

•

We can apply any unpaid amount against your credit
limit.

After we finish our investigation, one of two things will
happen:

•

If we made a mistake: You will not have to pay the
amount in question or any interest or other fees
related to that amount.

•

If we do not believe there was a mistake: You
will have to pay the amount in question, along
with applicable interest and fees. We will send
you a statement of the amount you owe and the
date payment is due. We may then report you as
delinquent if you do not pay the amount we think
you owe.

If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even if your
bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR
CREDIT CARD PURCHASES:
If you are dissatisfied with the goods or services that you
have purchased with your Card, and you have tried in good
faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your Card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your Card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still

LO14570.indd 14

12

2/25/2021 10:35:16 AM

LO14570.indd 15

dissatisfied with the purchase, contact us in writing at:
Hudson Valley Credit Union
P.O. Box 1071
Poughkeepsie, NY 12602-1071
or electronically at hvcu.org and click on “Contact Us”.
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may
report you as delinquent.
Mandatory Arbitration

Any claim, dispute, or controversy (“Claim”) arising out
of or relating to this Agreement or the relationships
among the parties hereto shall be resolved by one
arbitrator through binding arbitration administered by
the American Arbitration Association (“AAA”) in the State
of New York, under the AAA Consumer Rules in effect at
the time the Claim is filed (“AAA Rules”). Copies of the
AAA Rules and forms can be located at www.adr.org, or
by calling 1.800.778.7879. The arbitrator’s decision shall
be final, binding, and non-appealable. Judgment upon
the award may be entered and enforced in any court
having jurisdiction. The costs of the arbitration, including
arbitrator’s fees, shall be borne equally by the parties to
the arbitration, unless the arbitrator orders otherwise.
This clause is made pursuant to a transaction involving
interstate commerce and shall be governed by the
Federal Arbitration Act. Neither party shall sue the other
party other than as provided herein or for enforcement
of this clause or of the arbitrator’s award; any such suit
may be brought only in Federal District Court or, if any
such court lacks jurisdiction, in any state court that has
jurisdiction. The arbitrator, and not any federal, state,
or local court, shall have exclusive authority to resolve
any dispute relating to the interpretation, applicability,
unconscionability, arbitrarily, enforceability, or formation
of this Agreement including any claim that all or any
part of the Agreement is void or voidable. However, the
preceding sentence shall not apply to the clause entitled
“Class Action Waiver.”
This provision does not apply to covered borrowers, as
such term is defined in the Military Lending Act, as may be
amended from time to time.
Class Action Waiver

Any claim must be brought in the respective party’s
individual capacity, and not as a plaintiff or class member
in any purported class, collective, representative, multi-

13

2/25/2021 10:35:16 AM

LO14570.indd 16

plaintiff, or similar proceeding (“Class Action”). The parties
expressly waive any ability to maintain any Class Action
in any forum. The arbitrator shall not have authority to
combine or aggregate similar claims or conduct any Class
Action nor make an award to any person or entity not a
party to the arbitration. Any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable,
void, or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator.
THE PARTIES UNDERSTAND THAT THEY WOULD HAVE
HAD A RIGHT TO LITIGATE THROUGH A COURT, TO
HAVE A JUDGE OR JURY DECIDE THEIR CASE AND TO
BE A PARTY TO A CLASS OR REPRESENTATIVE ACTION.
HOWEVER, THEY UNDERSTAND AND CHOOSE TO
HAVE ANY CLAIMS DECIDED INDIVIDUALLY, THROUGH
ARBITRATION.
This provision does not apply to covered borrowers, as
such term is defined in the Military Lending Act, as may be
amended from time to time.
Waiver of Jury Trial
Subject to and without modifying or waiving in any way the
clauses above entitled “Mandatory Arbitration” and “Class
Action Waiver,” each of the parties hereby unconditionally
waives any right to a jury trial with respect to and in any
action, proceeding, claim, counterclaim, demand, dispute,
or other matter whatsoever arising out of or related to this
Agreement.
This provision does not apply to covered borrowers, as
such term is defined in the Military Lending Act, as may be
amended from time to time.
Credit Line Changes
You agree that without giving you advance notice, or upon
your written request, we may increase your Line Of Credit
at our discretion. By updating, reviewing, or extending
your Line of Credit, we may request a new credit report and
employment verification without telling you.
MAPR Statement
Federal law provides important protections to members
of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable
to the credit transaction or account: The costs associated
with credit insurance premiums; fees for ancillary products
sold in connection with the credit transaction; any

14

2/25/2021 10:35:16 AM

LO14570.indd 17

application fee charged (other than certain application
fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation
fees for a credit card account). You may obtain this
disclosure orally toll-free at 844.348.1617.

2/25/2021 10:35:16 AM

LO14570.indd 18

2/25/2021 10:35:16 AM

LO14570.indd 19

2/25/2021 10:35:16 AM

LO14570.indd 20

CJ
tz::=I

HudsonValley®
CREDIT UNION

LO14570-V8 2/2021

2/25/2021 10:35:16 AM

